   Board of Governors of the Federal Reserve System




REPORT ON THE AUDIT OF THE BOARD’S
 INFORMATION SECURITY PROGRAM




    OFFICE OF INSPECTOR GENERAL

                                                September 2007
                                       September 25, 2007


Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Members of the Board:

      The Office of Inspector General is pleased to present its Report on the Audit of the Board’s
Information Security Program. We performed this audit pursuant to requirements in the Federal
Information Security Management Act (FISMA), Title III, Public Law 107-347
(December 17, 2002), which requires each agency Inspector General (IG) to conduct an annual
independent evaluation of the agency’s information security program and practices. Our specific
audit objectives, based on the legislation’s requirements, were to evaluate the effectiveness of
security controls and techniques for selected information systems and to evaluate compliance by
the Board of Governors of the Federal Reserve System (Board) with FISMA and related
information security policies, procedures, standards, and guidelines. We conducted our audit
from December 2006 through September 2007 in accordance with generally accepted
government auditing standards.

      To evaluate security controls and techniques, we reviewed controls over three Board
applications and followed up on the open issues from our 2006 application control reviews. We
also recently began a review of controls provided by the Federal Reserve Bank of Boston (FRB
Boston) for applications the Reserve Bank maintains in support of the Board’s supervision and
regulation function. We performed our application control testing based on controls identified in
the National Institute of Standards and Technology (NIST) Special Publication 800-53,
Revision 1, Recommended Security Controls for Federal Information Systems (SP 800-53). The
controls are divided into “families” (such as access controls, risk assessment, and personnel
security) and include controls that can be categorized as system-specific or common (that is,
applicable across agency systems). Consequently, although our focus was on evaluating specific
applications, we also assessed some of the broader security controls that affect most, if not all,
applications.

      Our control tests identified areas where controls need to be strengthened. Because some of
the issues we identified are more significant—either alone or in combination with other
weaknesses—we have classified several of our findings as “control deficiencies.” Given the
sensitivity of the issues involved with these reviews, we will provide the specific results to
management in separate restricted reports. Follow-up work on our 2006 application control
reviews allowed us to close several of the outstanding recommendations.
Members of the Board                                2 of 21                              September 25, 2007


      To evaluate the Board’s compliance with FISMA and related policies and procedures, we
followed up on open recommendations from prior information security audit reports issued
pursuant to FISMA’s requirements.1 Because FISMA authorizes the IGs to base their annual
evaluations in whole or in part on existing audits, evaluations, or reports relating to programs or
practices of the agency, we also incorporated the results from, and actions taken on, (1) our 2005
audit of efforts by the Federal Reserve System (System) to implement FISMA’s requirements for
applications operated by the Reserve Banks in support of the Board’s delegated S&R function;
(2) our 2005 review of the Board’s implementation of software security reviews; and (3) our
2006 audit report related to electronic authentication (e-authentication). 2

      In addition, we compiled information on, and reviewed the Board’s processes related to,
areas for which the Office of Management and Budget (OMB) requested a specific response as
part of the agency’s annual FISMA reporting; our response will be provided to OMB by the
Chairman under separate cover. Areas we reviewed include security awareness and training,
certification and accreditation (C&A), remedial action monitoring, incident response,
configuration management, controls over personally identifiable information (PII), and privacy
impact assessment (PIA) processes.

      Overall, we found that the Board’s information security program continues to evolve and
mature. The Board has made additional progress toward implementing a structured information
security program as outlined by FISMA and has taken action to address open audit
recommendations. Specifically, we found that the Board revised its information security
program to incorporate guidance and standards recently issued by NIST. The Board also
updated many of its information security policies and guidance, continued to certify and accredit
information systems, and provided training to system owners and developers on their security-
related responsibilities. Despite this progress, however, the Board still has work remaining to
fully implement its information security program for all systems on the application inventory;
consequently, three of our audit recommendations remain open or partially closed.

      Based on our security-related fieldwork over the past year, we are not making any new
recommendations in this report. In our opinion, the primary challenge going forward for the
Board’s Chief Information Officer (CIO) and Information Security Officer (ISO) is to ensure that
all aspects of the revised information security program are fully and consistently implemented
across the systems supporting divisions and offices—as well as for third-party applications
supporting Board programs and operations—and that controls are implemented correctly,
working as intended, and producing the desired results. We will continue to review the
qualitative aspects of the program as part of future FISMA audits and evaluations.

      1
        See the following OIG reports: Audit of the Board’s Information Security Program, dated September 2004;
Audit of the Board’s Information Security Program, dated October 2005; and Audit of the Board’s Information
Security Program, dated September 2006.
      2
       See the following OIG reports: Audit of the Supervision and Regulation Function’s Efforts to Implement
Requirements of the Federal Information Security Management Act, dated September 2005; Review of the Board’s
Implementation of Software Security Reviews, dated May 2005; and Report on the Audit of the Board’s
Implementation of Electronic Authentication Requirements, dated March 2006.
Members of the Board                          3 of 21                         September 25, 2007


      Appendix 1 contains our analysis of the Board’s progress in implementing key FISMA
requirements. Appendix 2 lists the ten prior OIG audit recommendations related to information
security that were not fully closed as of the beginning of our 2007 information security audit and
their status based on our current audit work. As discussed in appendix 1, we determined that the
Board’s actions over the past year were sufficient to close seven of these recommendations. In
appendix 1, we also summarize the work that we believe remains for each FISMA requirement
and the reasons why audit recommendations, or portions of recommendations, remain open.

       We provided our draft report to the director of the Division of Information Technology
(IT), in her capacity as CIO for FISMA, and discussed the report’s content with her and the
Board’s ISO at our closing meeting. During the meeting, the director generally agreed with the
report’s contents. She and the ISO also discussed ongoing and planned activities to further
enhance the Board’s information security program. Because our report does not contain any new
recommendations, we did not request separate written comments.

      The principal contributors to this report are listed in appendix 3. We are providing copies
of this audit report to Board management officials. In addition, the Chairman will provide the
report to the director of OMB, as required by FISMA. The report will be added to our publicly-
available web site and will be summarized in our next semiannual report to the Congress. Please
contact me if you would like to discuss the audit report or any related issues.

                                            Sincerely,

                                             /signed/

                                      Elizabeth A. Coleman
                                        Inspector General

Attachments

cc:   Mr. Stephen Malphrus
      Ms. Maureen Hannan
      Mr. Roger Cole
      Mr. Peter Purcell
      Mr. Raymond Romero
APPENDIXES
Appendix 1 – OIG Analysis of the Board’s Progress in Implementing Key
             FISMA Requirements

Policies and Procedures

      Requirement:
            Information security policy is an essential component of an information security
            program. An agency’s information security policies should be based on a
            combination of appropriate legislation, such as FISMA; applicable standards,
            such as NIST Federal Information Processing Standards (FIPS) and guidance; and
            internal agency requirements. Supporting guidance and procedures on how to
            implement specific controls effectively across the enterprise should be developed
            to augment an agency’s security policy. To ensure that information security does
            not become obsolete, agencies should implement a review and revision process
            for its policies and procedures.

      Progress to Date:
            Our 2006 information security audit work found that the ISO had developed or
            revised guidance to help implement the Board’s information security program and
            that the ISO had worked with Board staff in divisions and offices to implement
            the guidance for systems under their control. However, we also noted that key
            guidance was in draft and that additional training for information and information
            system owners would help to ensure the program’s effective implementation. We
            recommended that the CIO enhance the security program by finalizing security-
            related policies and providing additional training focused on the information
            security program and associated Board policies and NIST guidance.

             During the past year, the ISO has continued to enhance the Board’s information
             security program. In March 2007, the ISO updated the overall information
             security program document. The ISO also updated guidance for categorizing
             information and systems, conducting risk assessments, and developing security
             plans. In addition, the ISO finalized guides for certifying and accrediting
             systems, training personnel with significant responsibilities for information
             security, and handling security incidents. The Board is also finalizing procedures
             for handling PII which will supplement the policies outlined in the Board’s
             recently issued Information Classification and Handling Guide.

             Earlier this year, the IT security staff provided training sessions on the updated
             information security program to system development staff and system owners.
             The sessions included a review of the Board’s information security processes and
             discussed the security-related roles and responsibilities associated with each
             process. The ISO plans to offer additional training. As a result of the actions
             taken to update and finalize the security-related policies and to provide associated
             training, we are closing our 2006 audit recommendation.


                                               7 of 21
      Work to Be Done:
            An agency will always need to update and refine its information security program
            and the related policies and procedures as the program evolves and as NIST and
            OMB issue new guidance. To achieve this objective, agencies should implement
            a review and revision process for their policies and procedures to ensure that
            information security does not become obsolete and that the policies and
            procedures are working effectively to produce the desired results. We will
            continue to review the need for additional guidance as part of our ongoing work
            related to information security. Given the programmatic changes over the past
            year, the CIO and ISO will also need to remain vigilant in monitoring compliance
            with the program’s requirements and in evaluating the requirement for refresher
            training.


Application Inventory

      Requirement:
            FISMA requires the head of each agency to develop and maintain an inventory of
            major information systems operated by or under the control of the agency. The
            inventory forms the basis for meeting the FISMA periodic testing requirement
            and should identify interfaces between each system and all other systems or
            networks. The inventory should also identify system criticality and risk levels.
            OMB expects agencies to have an inventory that is based on work completed in
            developing an enterprise architecture.

      Progress to Date:
            Our 2005 information security audit report contained a recommendation that the
            Board identify all information and information systems supporting its operations
            and assets, including those at Reserve Banks and other third parties, and ensure
            full and timely compliance with FISMA legislative requirements and related
            information security policy and guidance. Work completed as part of our 2006
            information security audit closed the first part of this recommendation, since the
            CIO had issued an inventory guide to provide additional guidance for classifying
            systems, and the ISO had worked with divisions to implement the guidance.
            During the past year, the ISO updated the guide and issued additional procedures
            for determining system types, bundling applications where appropriate, and
            documenting security requirements. In our opinion, the guidance provides a
            systematic approach for identifying and classifying systems to ensure that all
            Board information assets are properly identified and achieve the appropriate level
            of security as established by the Board’s information security program. The
            Board also continues to report progress in certifying and accrediting information
            systems on the inventory. During the past year, for example, the Board completed
            a certification of the IT general support system (GSS). As part of the
            certification, the IT security staff completed a baseline control matrix for each
            component of the GSS (such as Windows Active Directory, UNIX, and the
            mainframe).



                                          8 of 21
             Our 2006 information security audit report also noted that the Board’s inventory
             guide contained guidance to help the System identify and organize information
             assets operated by Reserve Banks under delegated authority from the Board.
             During the past year, we reviewed the System’s progress for identifying and
             grouping applications, and believe that sufficient work has been done to close the
             open inventory-related recommendation from our September 2005 report, Audit of
             the Supervision and Regulation Function’s Efforts to Implement Requirements of
             the Federal Information Security Management Act.

      Work to Be Done:
            As noted in several areas below (risk assessments, security plans, and certification
            and accreditation), the Board still has work remaining to fully implement the
            Board’s security program’s requirements for all systems on the inventory;
            therefore, we are leaving the second part of our 2005 recommendation open until
            this work is completed. As the ISO continues to review the inventory and further
            implement the bundling guidance, we will evaluate the appropriateness of any
            revisions to the Board’s application inventory. As minor systems are bundled into
            a GSS or major application, the ISO will also need to ensure that controls are
            properly documented, implemented, and tested to provide the appropriate level of
            security.

             As we reported last year, our 2005 information security audit report also
             contained a recommendation that the Board establish full-time, independent CIO
             and ISO positions that have the authority to direct and enforce FISMA
             compliance for all information and information systems that support Board
             operations and assets, including those provided by the Reserve Banks and other
             third parties. In responding to our recommendation, the Board’s previous CIO for
             FISMA stated that the Board will continue to evaluate and make changes as
             appropriate to the organizational structure in light of the final inventory and any
             additional developments from OMB. Until the work discussed above is
             completed, we will continue to hold this recommendation open and will reassess
             its status at that time.


Periodic Risk Assessments

      Requirement:
            FISMA requires periodic assessments of the risk and magnitude of the harm that
            could result from the unauthorized access, use, disclosure, disruption,
            modification, or destruction of information and information systems that support
            the operations and assets of the agency.

      Progress to Date:
            Our 2006 information security audit work found that the director of IT had issued
            a policy on risk assessments, including a standard template, to assist divisions and
            offices in performing the assessments. The risk assessment guide and template



                                           9 of 21
       were updated in 2007, and system owners must complete a risk assessment in
       preparing for a system C&A.

       Our March 2006 Report on the Audit of the Board’s Implementation of Electronic
       Authentication Requirements included a recommendation that the CIO:
       (1) finalize electronic authentication (e-authentication) guidance, to include
       providing additional guidance regarding assurance levels; (2) ensure that all
       applications meeting e-authentication requirements are identified and properly
       assessed; and (3) ensure that procedures are in place to include the validation and
       periodic reassessment of assurance levels as part of the Board’s revised
       information security program. Last year, we partially closed the recommendation
       because the ISO had included e-authentication guidance as part of the risk
       assessment guide. Since that time, we have reviewed e-authentication
       assessments completed as part of updated system risk assessments and believe
       that sufficient action has been taken to close the remaining portion of this
       recommendation.

       During 2005, we conducted a review of the Board’s implementation of software
       security reviews and recommended that the CIO develop guidance to ensure that
       single purpose software and other software products are evaluated as part of a
       GSS; as part of an application security review; or on an individual basis, as
       appropriate. Subsequently, the ISO developed a template for completing software
       security reviews for commercial off-the-shelf (COTS) products, and IT staff
       conducted several reviews during the year. In addition, as part of the Board’s
       security-related training, the ISO developed a set of frequently asked questions,
       which includes questions and responses related to implementation of software
       security reviews for COTS products. We believe sufficient work has been
       completed to close this recommendation.

Work to Be Done:
      Full implementation of the new risk assessment process will not occur until all
      systems have been through a C&A. As noted above, the ISO updated bundling
      guidance for determining system types and documenting security requirements.
      Systems bundled under a major application must be included in the risk
      assessment for the major application. For minor applications bundled under a
      GSS, the guidance requires that system owners complete a risk assessment and
      certify to the ISO that the controls have been successfully implemented (either by
      the GSS or by the application itself). If certain controls have not been satisfied,
      the owners must either accept the residual risk or describe the risk mitigation
      process. As system owners implement the bundling guidance, the ISO will need
      to ensure that all systems are appropriately assessed for risk and for the magnitude
      of harm that could result from the unauthorized access, use, disclosure, disruption,
      modification, or destruction of information and information systems that support
      the operations and assets of the Board.

       The first two security control reviews that we conducted this year identified areas
       where we believe the ISO needs to provide additional guidance for completing


                                     10 of 21
             risk assessments, and we are providing our recommendation to the ISO under
             separate restricted cover. We will continue to review implementation of the risk
             assessment process as part of our future application control reviews.


Security Plans

      Requirement:
            FISMA requires that agencies develop security plans for each system in the
            inventory. The system security plans should be based on the agencywide plan,
            provide an overview of the system’s specific security requirements, and describe
            the controls in place or planned for meeting those requirements. System security
            plans should delineate the responsibilities, expected behavior, and training
            requirements for all individuals who access the system, and describe appropriate
            controls for interconnection with other systems.

      Progress to Date:
            Last year, we noted that the ISO had developed new security plan templates for
            major applications, general support systems, and subsystems, and had required
            system owners to complete the appropriate template in preparation for certifying
            and accrediting their systems. During the past year, the ISO updated the security
            plan guidance and issued a revised control baseline template that includes all
            NIST SP 800-53 controls. The control baseline also includes suggested
            responses for each control in order to facilitate the system owner’s completion of
            the baseline; however, every control must be reviewed to ensure that the
            suggested answers are correct, or are appropriately adjusted, and accurately
            describe how the control is implemented in the context of the specific system. As
            part of the IT GSS certification process, IT staff completed baselines for various
            components of the IT GSS which will provide a foundation for reliance by
            applications bundled under the general support system.

      Work to Be Done:
            Full implementation of the new security plan will not occur until all systems have
            been through a C&A. As minor systems are bundled into a GSS or major
            application, the ISO will need to ensure that security plans accurately describe the
            controls in place for all components within the GSS or major application, and that
            the certification provides the appropriate level of testing and verification to ensure
            that controls are in place and operating as intended. We will review completed
            security plans during future security control tests.


Periodic Testing and Evaluation

      Requirement:
            FISMA requires periodic testing and evaluation of the effectiveness of an
            agency’s information security policies, procedures, and practices. The evaluation
            includes testing of the management, operational, and technical controls for each


                                           11 of 21
       system identified in the agency’s inventory and should be performed on a risk-
       based frequency, but not less than annually. Each system must also undergo a
       periodic certification and accreditation to ensure that the individual responsible
       for the system has guaranteed that security controls are commensurate with the
       risk and magnitude of the harm resulting from unauthorized access, use,
       disclosure, disruption, modification, or destruction of information contained in the
       system. A C&A should be completed before a system is initially placed into
       operation, and every three years thereafter, unless the system undergoes a
       significant change.

Progress to Date:
      During the past year, the ISO finalized the Board’s C&A guidelines. The
      guidance identifies roles and responsibilities for the C&A process, describes the
      required documentation, and discusses the various process phases. The guidance
      notes the importance of the post-accreditation phase, which includes configuration
      management and change control processes, continuous control monitoring (at
      both the information system and infrastructure levels), and annual security
      reviews. To help improve the Board’s continuous monitoring processes, the ISO
      has documented the Board’s vulnerability scanning environment (that is, the roles
      and responsibilities, and scanning tools currently used) and plans to further
      enhance scanning capabilities through automated tools. The ISO is also tracking
      the requirement for systems to undergo an annual security review in any year
      when the system is not subject to a C&A.

       The table below shows the total number of Board general support systems, major
       applications, and third-party systems, and the number of systems that were
       certified and accredited as of September 20, 2007. The C&A process has been a
       high priority for the Board over the past year. As the table shows, the Board
       reports that most systems have completed C&As, and the ISO expects all but 6
       systems to receive full authorizations to operate by the end of September. (The
       Board’s inventory includes an additional 119 minor applications and subsystems;
       the inventory indicates that 62 of these additional systems have also completed
       the C&A process. Going forward, however, these systems will be included in the
       C&A for the GSS or major application under which they reside.)

                                                                       Accreditation Status
                              Total      Certification       Full           Interim           No
        Type of System       Number       Completed      Authorizaon     Authorization Accreditation
                               of                         to Operate      to Operate        Decision
                             Systems
        Board General           5             4               4                0                0
        Support Systems
        Board Major             15            14              8                1                5
        Applications
        Third-Party             43           42*              16              26                0
        Systems
       *The ISO has also performed a review of the Statement on Auditing Standards No. 70 report for
       the Federal Reserve System’s outsourced contractor for retirement and benefit plan administration.




                                          12 of 21
      Work to Be Done:
            During the past year, the OIG conducted an evaluation of the Board’s C&A
            process and identified several areas of concern; we will provide our evaluation
            results to the CIO and ISO in a separate restricted report. In addition, as part of
            our security control review of a major application earlier this year, we reviewed
            the application’s completed C&A package and identified weaknesses we believe
            should have been identified during the C&A process. Our ongoing security
            control review at FRB Boston will allow us to review the C&A work completed
            for third-party applications and evaluate the level of testing conducted as part of
            that process. As we complete other control reviews during the year, we will
            continue to compare our evaluation results with completed C&A packages, and
            we will provide the ISO with any additional recommendations for improving the
            Board’s C&A process. We will also review implementation of the annual testing
            requirement for third-party systems (outside of the C&A process) so that we can
            close the remaining recommendation from our September 2005 report, Audit of
            the Supervision and Regulation Function’s Efforts to Implement Requirements of
            the Federal Information Security Management Act.

             Our security control review work to date has also identified concerns with the
             Board’s configuration management process. We recognize, however, that the ISO
             is evaluating enhanced automation capabilities which we believe will improve this
             process. We will also monitor the Board’s progress in enhancing configuration
             management processes as part of follow-up work on last year’s control review
             reports.


Planning, Implementing, Evaluating, and Documenting Remedial Actions

      Requirement:
            FISMA requires agencies to establish a process for addressing any deficiencies in
            information security policies, procedures, and practices. To implement this
            requirement, OMB has issued guidance requiring agencies to prepare and submit
            Plans of Action and Milestones (POA&Ms) for all programs and systems where
            an information technology security weakness has been found. The POA&Ms
            should include all security weaknesses found during any review done by, for, or
            on behalf of the agency, including Government Accountability Office audits,
            financial statement audits, and critical infrastructure vulnerability assessments. In
            addition, program officials should regularly update the CIO on their progress in
            implementing corrective actions to better enable the CIO to monitor agencywide
            remediation efforts and provide the agency’s quarterly POA&M update to OMB.

      Progress to Date:
            Our 2006 information security audit work found that the ISO had provided
            divisions and offices with additional guidance regarding the tracking and
            reporting of security-related issues, but that division-level reporting of
            performance metrics on outstanding issues was not always consistent from
            quarter-to-quarter. We noted that this issue could affect the roll-up of division-


                                           13 of 21
             level information to the overall Board POA&M which the CIO provides to OMB.
             During this past year, we found that divisions have more accurately tracked
             outstanding issues from one quarter to the next. Based on the guidance issued and
             the generally enhanced quality of the POA&Ms completed during the 2007
             FISMA cycle, we are closing our recommendation.

      Work to Be Done:
            The ISO should continue to ensure that divisions accurately update their division-
            level information so that the POA&M functions effectively as an agencywide
            vehicle for tracking security-related issues and monitoring agencywide
            remediation efforts. We will continue to review quarterly submissions by the
            divisions to the ISO, as well as the ISO’s submission to OMB.


Security Awareness Training/Training Personnel with Significant Security Responsibilities

      Requirement:
            FISMA requires that an agency’s information security program include security
            awareness training to inform all personnel, including contractors and other users
            of information systems that support the agency’s operations and assets, of the
            information security risks associated with their activities, as well as their
            responsibilities in complying with agency policies and procedures. FISMA also
            requires that the CIO train and oversee personnel with significant responsibilities
            for information security.

      Progress to Date:
            As part of security awareness and training, the Board continues to post security-
            related articles on its internal website. During the past year, these articles have
            covered password requirements and encrypting data on USB drives. IT’s intranet
            website related to information security also includes links to security awareness
            articles from the past ten years. In addition, the Board administers an online
            security awareness quiz covering security articles posted during the year; the quiz
            also provides a mechanism for staff to provide feedback to the ISO. As noted
            earlier, the IT security staff conducted training sessions on the Board’s
            information security program for development staff and system owners.

             Our 2006 information security audit work identified individuals who we believed
             should have been designated as having significant security responsibilities and
             who, in our opinion, had not received the proper level of training. We
             recommended that the CIO provide additional guidance for designating
             individuals with significant security responsibilities and identify specific training
             requirements. During the past year, the ISO issued guidance for designating
             individuals with significant security responsibilities. The guidance, which is an
             appendix to the Board’s information security program document, includes
             categories of individuals that meet the definition of having significant security
             responsibilities and identifies the levels of knowledge appropriate for each
             category. This action is sufficient to close the recommendation.


                                           14 of 21
          Work to Be Done:
                Given the volume of updated guidance issued over the past year, the ISO should
                evaluate the need for additional training over the coming year. As NIST and
                OMB issue new guidance, and the Board incorporates this guidance into its
                information security program, the ISO will need to consider refresher training on
                a regular basis. In addition, the ISO will also need to monitor actions taken in
                response to the recent guidance for designating individuals with significant
                security responsibilities to ensure that the guidance is implemented consistently
                for Board staff, and that Reserve Bank staff responsible for systems supporting
                delegated functions meet comparable requirements. As with other areas
                contained in the FISMA legislation, we will review the Board’s progress in
                identifying and providing training to individuals with significant security
                responsibilities as part of our future security control reviews.


Detecting, Reporting, and Responding to Security Incidents

          Requirement:
                FISMA requires agencies to develop procedures for detecting, reporting, and
                responding to security incidents. The procedures should include steps to mitigate
                risks from security incidents before substantial damage is done, and to notify and
                consult with the United States Computer Emergency Readiness Team
                (US-CERT), appropriate law enforcement agencies, and relevant OIGs.
                US-CERT has also established requirements for incident reporting, which include
                priority levels for categories of incidents and the timeframes for reporting each
                priority level.3

          Progress to Date:
                Our 2004 information security audit work found that the ISO was not reporting all
                levels of incidents that are required to be reported to the US-CERT; our audit
                report included a recommendation that the CIO expand the Board’s reporting of
                security incidents to include all five incident priority levels, as well as incidents
                that occur at the Reserve Banks and other third-party contractors. Earlier this
                year, the ISO issued a new Information Security Incident Handling Policy that
                includes requirements to report all levels of incidents. Over the past year, we
                have reviewed incidents reported by the ISO to US-CERT and found that the
                reports include incidents at the Board and the Reserve Banks. To inform
                employees of their responsibilities, the ISO has also posted articles on this topic
                on the Board’s website as part of security awareness training. We believe
                sufficient action has been taken to close the recommendation.



      3
        US-CERT established the incident categories and reporting timeframes to enable improved communications
between and among agencies. The categories range from category 1 (unauthorized access) which should be reported
within one hour of discovery or detection, to category 5 (scans, probes, and attempted access) which should be
reported on a monthly basis.


                                                  15 of 21
             To comply with new OMB privacy-related requirements, the Board’s Legal
             Division (Legal) has drafted a data breach notification policy and is finalizing PII
             procedures. The ISO has also identified applications on the Board’s inventory
             that contain PII and sensitive data. To supplement the Board’s policy, the
             Division of Banking Supervision and Regulation (BS&R) and the Division of
             Consumer and Community Affairs issued additional guidance for safeguarding
             and reporting a loss of confidential information that includes PII. Earlier this
             year, we began an inspection with the objective of evaluating policies, procedures,
             practices, and controls to safeguard PII that is collected during examinations
             conducted by Federal Reserve Banks under the Board’s delegated authority. We
             will provide the results of our inspection to Board management once our
             fieldwork is completed.

      Work to Be Done:
            This year’s OMB reporting requirements ask the IGs to evaluate their agency’s
            processes related to PIAs. Our initial work in this area found that the Board has
            completed four assessments and posted the documents to its public web page.
            The security control baseline issued earlier this year contains a requirement for
            system owners to either complete a PIA as part of the planning process or obtain a
            determination from Board Legal that a PIA is not required. However, guidance
            for completing the assessment is still in draft. Legal staff also informed us that
            BS&R is performing a Systemwide review of systems supporting the supervision
            and regulation function to identify additional systems that may require an
            assessment (although BS&R is determining whether similar systems may be
            combined under one umbrella assessment). In addition, our control review of one
            major application found that a PIA had not been completed, although the system
            owners are presently working with Legal to comply with the assessment
            requirement. As we complete the fieldwork necessary to respond to OMB’s
            reporting requirement, we will report any additional areas of concern to
            appropriate officials.


Continuity of Operations Plans and Procedures

      Requirement:
            FISMA requires that agency information security programs include plans and
            procedures to ensure continuity of operations for information systems that support
            the agency’s operations and assets. OMB’s FISMA reporting guidance also
            indicates that contingency planning is a requirement for certification and
            accreditation, with annual contingency plan testing required thereafter.

      Progress to Date:
            The Board continues to conduct semiannual contingency testing. Divisions
            participate in the semiannual contingency tests and the ISO uses the Board’s
            application inventory to track which systems have been tested. The Board
            recently expanded the contingency testing to include a separate, full-day senior
            management exercise at the Board’s contingency site. In addition, divisions were


                                           16 of 21
       requested to supplement their contingency planning documents to address the
       avian flu threat. As part of that update process, the Staff Director for
       Management requested that divisions review and confirm critical business
       functions and evaluate technical requirements, such as remote access capabilities.

Work to Be Done:
      We shared our observations from prior contingency tests with IT management and
      offered suggestions for enhancing the testing. Our suggestions included
      reviewing required recovery timeframes, coordinating backup tape delivery, and
      developing after-action reports. To help ensure that the contingency tests
      continue to provide value to the Board, the CIO and ISO (in conjunction with
      Board staff responsible for contingency planning) will need to ensure that the tests
      do not become too “routine” or that participants do not become complacent. We
      will continue to monitor the contingency tests as part of our ongoing FISMA
      work, and anticipate performing focused audit or evaluation work in this area over
      the coming year.




                                     17 of 21
Appendix 2 – Updated Status of Prior OIG Information Security Audit
            Recommendations
        The following tables list the recommendations that were not fully closed at the time of
our 2007 audit. The first column lists the original recommendation(s) from each report cited. In
the status column, we note the current status of each recommendation as discussed in
appendix 1.

2004 Audit of the Board’s Information Security Program

Original Recommendation                                                                    Status
We recommend that the CIO enhance the process for prioritizing, tracking,                  Closed
and managing security performance gaps by (1) providing additional                         (see discussion in
guidance on the level of detail that should be reported on Plans of Action                 appendix 1, page
and Milestones (POA&Ms) and (2) ensuring that all security-related tasks                   13)
are monitored through the Board’s POA&M process.
We recommend the CIO expand the Board’s reporting of security incidents                    Closed
to include all five incident priority levels as well as incidents that occur at            (see discussion in
the Reserve Banks and other third-party contractors.4                                      appendix 1, page
                                                                                           15)


2005 Audit of the Board’s Information Security Program

Original Recommendation                                                                    Status
We recommend that the Board identify all information and information                       Partially Closed
systems supporting its operations and assets, including those at Reserve                   (see discussion in
Banks and other third parties, and ensure full and timely compliance with                  appendix 1, page
FISMA’s legislative requirements and related information security policy                   8)
and guidance.
We recommend that the Board establish full-time, independent Chief                         Open
Information Officer (CIO) and Information Security Officer (ISO)                           (see discussion in
positions that have the authority to direct and enforce compliance with                    appendix 1, page
FISMA’s requirements for all information and information systems that                      9)
support Board operations and assets, including those provided by the
Reserve Banks and other third parties.




        4
           At the time of our audit recommendation in 2004, US-CERT had established only four priority levels.
During 2005, US-CERT revised their reporting guidelines to be consistent with NIST and established five reportable
categories. We have updated our recommendation wording to reflect this change.



                                                    19 of 21
2005 Audit of the Supervision and Regulation Function’s Efforts to Implement
Requirements of the Federal Information Security Management Act

Original Recommendation                                                        Status
We recommend that the CIO provide guidance for developing an                   Closed
inventory of S&R-related applications and ensure that the guidance is          (see discussion in
implemented consistently across the System.                                    appendix 1, page
                                                                               9)
We recommend that the CIO issue guidance for conducting information            Partially Closed
security reviews that includes specific requirements for control testing.      (see discussion in
                                                                               appendix 1, page
                                                                               13)

2005 Review of the Board’s Implementation of Software Security Reviews

Original Recommendation                                                        Status
We recommend the CIO develop guidance to ensure that single purpose            Closed (see
software and other software products are evaluated as part of a general        discussion in
support system, as part of an application security review, or on an            appendix 1, page
individual basis as appropriate.                                               10)

2006 Report on the Audit of the Board’s Implementation of Electronic
Authentication Requirements

Original Recommendation                                                        Status
We recommend that the CIO: (1) finalize e-authentication guidance, to          Closed
include providing additional guidance regarding assurance levels; (2)          (see discussion in
ensure that all applications meeting e-authentication requirements are         appendix 1, page
identified and properly assessed; and (3) ensure that procedures are in        10)
place to include the validation and periodic reassessment of assurance
levels as part of the Board’s revised information security program.


2006 Audit of the Board’s Information Security Program

Original Recommendation                                                        Status
We recommend that the Chief Information Officer (CIO) enhance the              Closed
Board’s security program by finalizing security-related policies and by        (See discussion in
providing additional training focused on the revised information security      Appendix 1, page
program and associated Board policies and NIST guidance.                       7)
We recommend that the CIO provide additional guidance for designating          Closed
individuals with significant security responsibilities and identify specific   (see discussion in
training requirements.                                                         appendix 1, page
                                                                               14)




                                             20 of 21
Appendix 3 – Principal Contributors to this Report
Peter Sheridan, Senior IT Auditor and Auditor-in-Charge

Richard Allen, IT Auditor

Robert McMillon, Senior IT Auditor

Satynarayana-Setty Sriram, IT Auditor

William Mitchell, Assistant Inspector General for Audits and Attestations




                                            21 of 21
